Office of Inspector General
Product/Service
Information
     Semiannual Report to Congress
          Covering the Period

    April 1, 2013 – September 30, 2013




FEDERAL MARITIME COMMISSION
                              FEDERAL MARITIME COMMISSION
                                   Washington, DC 20573


                                       October 31, 2013
Office of Inspector General




Dear Chairman Cordero and Commissioners:

        The attached report is submitted in accordance with Section 5 of the Inspector General
Act of 1978, as amended. It summarizes the activities of the Office of Inspector General
(“OIG”) for the period April 1, 2013 to September 30, 2013. The Act requires that you transmit
the report to the appropriate Congressional committees within 30 days of receipt. Your
transmittal should also include any comments you consider appropriate and other statistical
tables and reports required by law.

        It has been a real pleasure to serve as your Interim Inspector General (IG) since early
August 2013. I have enjoyed meeting the fine staff of the FMC and learning about the critical
mission of the agency overseeing the international ocean transportation system on behalf of the
American public. Based on my discussions with the Commission and an understanding of their
IG recruitment efforts, I am encouraged that a permanent IG will be in place very soon. Until
that time, I look forward to continuing to work with you and the Commissioners in our ongoing
efforts to promote economy and efficiency in agency programs. Finally, I would like to express
my gratitude to the FMC OIG staff for their hard work and dedication to the work and mission of
the FMC OIG, as well as their untiring assistance to me, during this trying transitional period.


                                                   Respectfully submitted,




                                                   /Jonathan Hatfield/
                                                   Interim Inspector General



Enclosure
                                                   TABLE OF CONTENTS

Transmittal Letter

EXECUTIVE SUMMARY .......................................................................................................... 1

FEDERAL MARITIME COMMISSION .................................................................................. 2

OFFICE OF INSPECTOR GENERAL ...................................................................................... 2

OFFICE OF INSPECTOR GENERAL ACTIVITIES ............................................................. 3

   On-going Audits and Evaluations ............................................................................................... 3
   Investigations .............................................................................................................................. 4
   Other Activities ........................................................................................................................... 5

SUMMARY OF INSPECTOR GENERAL REPORTING REQUIREMENTS ............................ 8

   TABLE I –           Summary of Audit Reports with Corrective Actions Outstanding for
                       More than 1 Year .................................................................................................. 9
   TABLE II – Listing of Audit Reports Issued............................................................................. 9
   TABLE III – Reports with Questioned Costs ........................................................................... 10
   TABLE IV – Recommendations that Funds be Put to Better Use ............................................ 11
                                EXECUTIVE SUMMARY

       This Semiannual Report summarizes the activities and accomplishments of the Federal
Maritime Commission (“FMC” or “Commission”), Office of Inspector General (“OIG”) for the
period April 1, 2013 through September 30, 2013. The most significant activities of the OIG
during the second half of Fiscal Year (“FY”) 2013 are noted below. Additional details pertaining
to each activity can be found in subsequent sections of this report.

       The FMC OIG has been without a permanent Inspector General since January 2013.
During this period, the FMC OIG has had two Interim Inspectors General, each generally
working one or two days per-week.          Throughout their tenure with the FMC, the Interim
Inspectors General have held concurrent positions in other OIG offices. Between January 24,
2013 and August 9, 2013, through a series of agreements, the Commission designated Dana
Rooney-Fisher, the Inspector General for the Federal Labor Relations Authority (“FLRA”), to
serve as Interim Inspector General, while a search for a permanent inspector general was
conducted. Following the expiration of Ms. Rooney-Fisher’s last agreement, the Commission
designated Jonathan Hatfield to serve as Interim Inspector General, while the permanent IG
position remains open. Mr. Hatfield is concurrently serving as the Deputy Inspector General for
the Federal Election Commission (“FEC”) OIG.

       During this period, the OIG had three audits and one evaluation open. Specifically, as of
the end of this reporting period, the OIG’s Audit of Expenditures for Furnishing or Re-
decorating Commissioners’ Offices was in the report phase and the draft report is expected to be
issued to FMC management shortly. In addition, the OIG’s annual financial statement audit and
Evaluation of the FMC’s Compliance with the Federal Information Security Management Act
Fiscal Year (FY) 2013 were both in progress and expected to be completed by December 2013.
Lastly, the OIG initiated an audit of the FMC’s physical security operations during this reporting
period and this audit is expected to be completed in a future reporting period.

       During this reporting period, the OIG received eight complaints, two of which reported
similar allegations and one that duplicated a previous complaint. The eight complaints were
received through the following methods: five anonymous contacts; one through the OIG’s main
telephone line; one through the OIG’s hotline; and one by internal mail. The two similar

April 1, 2013 – September 30, 2013                                                         Page 1
allegations were combined into one preliminary investigation, which later was converted into a
formal investigation.   The duplicate complaint was included in a matter that is already under an
administrative investigation, after consulting with the Department of Justice regarding the
allegations and receiving a declination to prosecute. The OIG began a preliminary investigation
of one of the eight complaints and closed it due to lack of evidence. We forwarded two
complaints to responsible officials outside of the OIG for appropriate action, if warranted.
Lastly, the OIG commenced preliminary investigations on two of the complaints concerning
allegations about FMC employees.

       In addition to these activities, the OIG continued to work with the Commission’s Office
of the General Counsel to update and issue Commission Order 113, which pertains to OIG
reporting responsibilities and protections for whistleblowers with access to classified
information. The OIG also revised its own System of Records Notice and is working with the
Commission to post the revisions, upon approval by the IG.


                        FEDERAL MARITIME COMMISSION
       The FMC is an independent agency responsible for the regulation of ocean borne
transportation in the foreign commerce of the United States. The principal statutes or statutory
provisions administered by the Commission are: the Shipping Act of 1984, as amended by the
Ocean Shipping Reform Act of 1998; the Foreign Shipping Practices Act of 1988; and Section
19 of the Merchant Marine Act of 1920.

       The FMC is headed by five commissioners nominated by the President and confirmed by
the Senate, each serving five-year terms. Although the majority of FMC personnel are located in
Washington, D.C., the Commission also maintains a presence in Los Angeles, Seattle, New
York, New Orleans, Houston, and South Florida through area representatives who serve the
major ports and transportation centers within their respective geographic areas. In addition, one
at-large area representative operates from Washington, D.C.


                        OFFICE OF INSPECTOR GENERAL
       The OIG was established in 1989 by the Inspector General Act of 1978, as amended (5
U.S.C. app.). The OIG is an independent audit and investigative unit headed by an IG who
April 1, 2013 – September 30, 2013                                                        Page 2
reports to the FMC Commissioners. To aid the FMC in accomplishing its mission, the OIG is
provided three full-time positions.

       The OIG is responsible for conducting audits and investigations relating to the programs
and operations of the FMC. Audits are conducted for the purpose of finding and preventing
fraud, waste and abuse, and promoting economy, efficiency and effectiveness within the agency.
The OIG investigations seek out facts related to allegations of wrongdoing on the part of FMC
employees and individuals, or entities contracting with, or obtaining benefits from, the agency.
The Inspector General Act provides that the OIG shall have access to all agency records and may
subpoena records from entities outside of the agency in connection with an audit or investigation.

       The IG is required by law to prepare a report summarizing OIG audits and investigations
during the immediately preceding six-month period. The report is sent to the FMC
Commissioners, the President of the Senate, the Speaker of the House and FMC’s appropriating
and authorizing committees. This dual reporting requirement helps to ensure the independence
of the OIG.


               OFFICE OF INSPECTOR GENERAL ACTIVITIES

On-going Audits and Evaluations

       Audit of Expenditures for Furnishing or Re-decorating Commissioners’ Offices. The
OIG decided to perform this review after the FMC received a request, on May 9, 2012, from the
Committee on Oversight and Government Reform to provide a complete account for all
purchases made for the previous Chairman. The objectives of the audit were to determine
whether the Commission complies with applicable laws and regulations regarding expenses
associated with furnishing, redecorating, or making improvements to Commissioners’ offices.
Specifically, we performed this review to determine whether the Commissioners stayed within
their $5,000 statutory spending limit and to determine whether these expenses are recorded and
tracked during the term, reappointment or hold over of office for each Presidential-appointee.

       The OIG staff completed the audit fieldwork and the Federal Trade Commission (“FTC”)
OIG independently referenced the report. The audit workpapers and draft report are currently
under OIG management review and the final report is expected to be issued to FMC management
during the next semiannual reporting period.
April 1, 2013 – September 30, 2013                                                         Page 3
       Evaluation of FMC’s Compliance with the Federal Information Security Management
Act FY 2013. The objectives of the independent evaluation of the FMC’s information security
program are to evaluate its security posture by assessing compliance with the Federal
Information Security Management Act and related information security policies, procedures,
standards, and guidelines. The scope of this task includes the FMC network and applications
housing service contracts, tariff location filings, and FMC license applications. The OIG also
plans to perform a network scan to identify potential system vulnerabilities and assess
management actions to implement prior-year recommendations.

       Independent Auditor’s Report of FMC’s FY 2013 Financial Statements. The audit
objectives are to opine on whether the FMC’s FY 2013 financial statements follow U.S.
Generally Accepted Accounting Principles and present fairly the financial position of the agency.
The OIG also will review internal controls over financial reporting and agency compliance with
laws and regulations. The statements to be audited are the Balance Sheets as of September 30,
2013 and 2012, and the related Statements of Net Cost, Statements of Changes in Net Position,
Statements of Budgetary Resources and Statements of Custodial Activity.

       Audit of FMC’s Physical Security – Datawatch. This audit was incorporated into the
OIG’s 2013 annual audit plan and was initiated on November 8, 2012; however, with the press of
other OIG activities, it was delayed. The OIG re-initiated the review in August 2013, with the
objectives to determine the effectiveness of the Datawatch physical security system.

Investigations

       The Inspector General Act of 1978, as amended, provides that the IG may receive and
investigate complaints or information concerning possible allegations of fraud, waste and abuse
occurring within FMC programs and operations by employees or contractors.              Matters of
possible wrongdoing are referred to the OIG in the form of allegations or complaints from a
variety of sources, including FMC employees, other government agencies and the general public.

       During this reporting period, the OIG received eight complaints, two of which reported
similar allegations and one that duplicated a previous complaint. The eight complaints were
received through the following methods: five anonymous contacts; one through the OIG’s main
telephone line; one through the OIG’s hotline; and one by internal mail. The two similar

April 1, 2013 – September 30, 2013                                                        Page 4
allegations were combined into one preliminary investigation, which later was converted into a
formal investigation.   The duplicate complaint was included in a matter that is already under an
administrative investigation, after consulting with the Department of Justice regarding the
allegations and receiving a declination to prosecute. The OIG began a preliminary investigation
of one of the eight complaints and closed it due to lack of evidence. We forwarded two
complaints to responsible officials outside of the OIG for appropriate action, if warranted.
Lastly, the OIG commenced preliminary investigations on two of the complaints concerning
allegations about FMC employees.

Other Activities

                                          Peer Review

       Federal offices of inspectors general are required by the IG Act to have an audit peer
review performed once every three years. These reviews are to be performed only by Federal
auditors. A committee of the Council of Inspectors General on Integrity and Efficiency (CIGIE)
schedules the review to ensure that resources are available to perform the review and that OIGs
do not conduct reciprocal reviews.

       The objectives of a peer review are to determine, for the audit function, whether an
effective quality control system has been established in the office and if policies, procedures and
applicable government auditing standards are being followed.

       The Dodd-Frank Wall Street Reform and Consumer Protection Act of 2010, Public Law
111-203, requires federal offices of inspectors general to include in their semiannual reports to
Congress an appendix containing the results of any peer review conducted by another OIG
during the reporting period, or, if no peer review was conducted within that reporting period, a
statement identifying the date of the last peer review conducted by another OIG.

       The Postal Rate Commission OIG completed a peer review of the FMC OIG and issued a
report in a previous reporting period, on March 28, 2013. The peer review was conducted for the
period October 1, 2009 through September 30, 2012. The report has a rating of pass and is
available on the FMC OIG website. The system review report included no recommendations.



April 1, 2013 – September 30, 2013                                                          Page 5
                               Memorandum of Understandings

       The FEC OIG signed a Memorandum of Understanding (“MOU”) with the Commission
under which the FEC’s Deputy Inspector General serves as the Commission’s Interim Inspector
General while the IG position remains open.

       Prior to the current MOU, the FLRA signed a series of MOUs with the Commission,
under which the FLRA’s Inspector General acted as the Commission’s Interim Inspector
General.

       The FTC OIG and FMC OIG signed a MOU during this reporting period to provide
independent referencing of each office’s respective audit/evaluation reports.

                                      Review of Legislation

       As required by the Inspector General Act of 1978, as amended, the OIG routinely reviews
proposed legislation and regulations. The purpose of these reviews is to assess whether the
proposed legislation or regulation: (1) impacts the economy and efficiency of FMC programs
and operations; and (2) contains adequate internal controls to prevent and detect fraud and abuse.
However, the OIG has revised its own System of Records Notice and is working with the
Commission to post the revisions, upon approval by the IG.

                                     Review of FMC Policies

       During this semiannual period, the OIG continued to work with the agency’s Office of
the General Counsel to revise Commission Order 113, which pertains to OIG reporting
responsibilities and protections for whistleblowers with access to classified information.




April 1, 2013 – September 30, 2013                                                           Page 6
            Council of Inspectors General on Integrity and Efficiency Activities


       The Council of Inspectors General on Integrity and Efficiency (“CIGIE”) was established
by law as an independent entity by the Inspector General Reform Act of 2008 (P.L. 110-409) to:

       address integrity, economy and effectiveness issues that transcend individual government
       agencies; and
       increase the professionalism and effectiveness of personnel by developing policies,
       standards, and approaches to aid in the establishment of a well-trained and highly skilled
       workforce in the Office of Inspectors General.

       The CIGIE is comprised of all inspectors general that are Presidentially-appointed /
Senate confirmed and those that are appointed by agency heads -- designated federal entities.
The FMC OIG remains active in CIGIE operations. Specifically, the Interim Inspector General
is a member of CIGIE and participates in the monthly CIGIE meetings. The Assistant Inspector
General for Audits participates in Federal Audit Executive Council (“FAEC”) activities. The
FAEC is comprised of senior audit staff from agency OIGs that discuss and coordinate issues
affecting the federal audit community -- with special emphasis on audit policy and operations of
common interest to FAEC members. The Counsel to the Inspector General participates in the
Council of Counsels to the Inspector General (“CCIG”) activities. The CCIG consists of senior
counsel from agency OIGs who discuss various legal issues that affect the OIG community. As
Chief Investigator, the OIG Counsel also attends the Assistant Inspector General for
Investigations Committee quarterly meetings, where issues concerning OIG investigative matters
are discussed.




April 1, 2013 – September 30, 2013                                                        Page 7
                           SUMMARY OF INSPECTOR GENERAL
                              REPORTING REQUIREMENTS


        IG Act Reference                 Reporting Requirement                 Pages

        Section 4(a)(2)      Review of legislation and regulations              6

        Section 5(a)(1)      Significant problems, abuses and deficiencies     None


        Section 5(a)(2)      Recommendations with respect to significant       None
                             problems, abuses, or deficiencies


        Section 5(a)(3)      Prior significant recommendations on which         9
                             corrective actions have not been completed

        Section 5(a)(4)      Matters referred to prosecutive authorities        5

        Section 5(a)(5)      Summary of instances where information was        None
                             refused

        Section 5(a)(6)      List of audit reports by subject matter           None

        Section 5(a)(7)      Summary of each particularly significant report   None

        Section 5(a)(8)      Statistical table Reports with questioned costs    10

        Section 5(a)(9)      Statistical table recommendations that funds be    11
                             put to better use

        Section 5(a)(10)     Summary of each audit issued before this          None
                             reporting period for which no management
                             decision was made by the end of the reporting
                             period

        Section 5(a)(11)     Description and explanation of significant        None
                             revised management decisions

        Section 5(a)(12)     Significant management decisions with which       None
                             the inspector general disagrees
                             Information under Section 5(b) of the Federal
        Section 5(a)(13)     Management Improvement Act (FFMIA) of             None
                             1996
        Section 5(a)(14)     Peer Review Activity                               5

April 1, 2013 – September 30, 2013                                                     Page 8
                       TABLE I – Summary of Audit Reports with
                   Corrective Actions Outstanding for More than 1 Year

                                                                  Recommendations

           Report Title              Report        Issue
                                                            Number     Open      Closed
                                     Number        Date
    FY 2011 Implementation           A12-02       1/17/12     20         9         11
    of FISMA
    Review of FMC’s User             OR10-03      5/27/10     1          1          0
    Fee Calculations
    FY 2009 Implementation           A10-02       1/28/10     19         1         18
    of FISMA




                          TABLE II - Listing of Audit Reports Issued

      Report         Issue    Report Title     Questioned   Unsupported      Funds Put to
      Number         Date                        Costs         Costs          Better Use
      NONE                                        $0            $0                $0




April 1, 2013 – September 30, 2013                                                      Page 9
                                           TABLE III

                                Reports with Questioned Costs

                                                        Number
                                                          of      Questioned   Unsupported
                                                        Reports     Costs         Costs
A. For which no management decision has been               0         $0            $0
   made by the commencement of the reporting
   period.


B.   Which were issued during the reporting period.        0         $0            $0


                                     Subtotal (A + B)      0         $0            $0


C. For which a management decision was made                0         $0            $0
   during the reporting period.


     (i)   dollar value of disallowed costs; and           0         $0            $0

     (ii) dollar value of costs not disallowed             0         $0            $0

D. For which no management decision has been               0         $0            $0
   made by the end of the reporting period.

E.   Reports for which no management decision              0         $0            $0
     was made within six months of issuance.




April 1, 2013 – September 30, 2013                                                  Page 10
                                          TABLE IV


                     Recommendations That Funds Be Put To Better Use

                                                                Number
                                                                  of
                                                                Reports   Dollar Value
      A. For which no management decision has been made
         by the commencement of the reporting period.
                                                                   0          $0

      B.   Which were issued during the reporting period.          0          $0


                                            Subtotal (A + B)       0          $0


      C.   For which a management decision was made during
           the reporting period.
                                                                   0          $0

           (i)   dollar value of recommendations that were         0          $0
                 agreed to by management; and

           (ii) dollar value of recommendations that were not      0          $0
                agreed to by management

      D. For which no management decision has been made
         by the end of the reporting period.                       0          $0

      E.   Reports for which no management decision was
                                                                   0          $0
           made within six months of issuance




April 1, 2013 – September 30, 2013                                                  Page 11
                          Contacting the Office of Inspector General

         Employees and the public are encouraged to contact the OIG regarding any incidents of
possible waste, fraud or abuse occurring within FMC programs and operations. To report
suspected wrongdoing, employees or the public may call the OIG Hotline on (202) 523-5865. A
confidential or anonymous message can be left 24 hours a day. Complaints or allegations of
fraud,    waste    or    abuse       can   also   be   emailed   to    oig@fmc.gov    or    to
https://www2.fmc.gov/oigcomplaints/ (if the complainant wishes to remain anonymous). For
general information and to speak with the OIG staff, the OIG main telephone number is (202)
523-5863.




April 1, 2013 – September 30, 2013                                                    Page 12
                 HOTLINE COMPLAINTS
The success of the OIG mission to prevent fraud, waste and abuse
depends on the cooperation of FMC employees and the public.

A COMPLAINT CAN BE REPORTED BY CALLING OUR 24-HR DIRECT LINE

                                       (202) 523-5865
                           E-MAIL ADDRESS: OIG@FMC.GOV

                                                 OR


https://www2.fmc.gov/oigcomplaints/
TO PLACE A COMPLAINT IN WRITING PLEASE MAIL TO:

                       Federal Maritime Commission
                       Office of Inspector General
                       Room 1054
                       800 North Capitol Street, NW
                       Washington, DC 20573
                       To Be Opened By the IG Only

THE INFORMATION YOU PROVIDE IS CONFIDENTIAL AND YOU CAN BE ANONYMOUS


HOWEVER, CALLERS ARE ENCOURAGED TO ASSIST THE INSPECTOR GENERAL BY
SUPPLYING INFORMATION AS TO HOW THEY MAY BE CONTACTED FOR ADDITIONAL INFORMATION
